Case: 19-12390

Date Filed: 08/26/2020

Page: 1 of 12

8le

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12390
Non-Argument Calendar

D.C. Docket No. l:09-cr-20264-JLK-6

UNITED STATES OF AMERICA
Plaintiff-Appellee,
versus
FRANTZ STERLIN,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of Florida
(August 26, 2020)
Before BRANCH, BRASHER and DUBINA, Circuit Judges.
PER CURIAM:

Case: 19-12390

Date Filed: 08/26/2020

Page: 2 of 12

Frantz Sterlin, a federal prisoner, appeals the district court’s order denying
his motion for reduction of his 192-month total sentence under the First Step Act
of 2018, Pub. L. No. 115-391, § 404, 132 Stat. 5194, 5222 (2018) (“First Step
Act”), after the court refused to exercise its discretion to reduce his total sentence,
even though it determined that he was eligible for relief under the retroactive
provisions of the Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372
(2010) (“Fair Sentencing Act”). On appeal, Sterlin argues that the denial of his
motion was both procedurally and substantively unreasonable because the district
court failed to consider adequately all the factors listed under 18 U.S.C. § 3553(a).
I.
We review de novo “whether a district court had the authority to modify a
term of imprisonment.” United States v. Jones, 962 F.3d 1290, 1296 (11th Cir.
2020). “We review for abuse of discretion the [district court’s] denial of an
eligible movant’s request for a reduced sentence under the First Step Act.” Id. “A
district court abuses its discretion if it applies an incorrect legal standard.”
Diveroli v. United States, 803 F.3d 1258, 1262 (11th Cir. 2015) (quotation marks
omitted). District courts lack the inherent authority to modify a term of
imprisonment but may do so to the extent that a statute expressly permits. 18
U.S.C. § 3582(c)(1)(B). “[T]he First Step Act expressly permits district courts to
reduce a previously imposed term of imprisonment.” Jones, 962 F.3d at 1297.
2

Case: 19-12390

Date Filed: 08/26/2020

Page: 3 of 12

II*
The Fair Sentencing Act, enacted on August 3, 2010, amended 21 U.S.C.
§§ 841(b)(1) and 960(b) to reduce the sentencing disparity between crack and
powder cocaine. Fair Sentencing Act; see Dorsey v. United States, 567 U.S. 260,
268-70, 132 S. Ct. 2321, 2328-29 (2012) (detailing the history that led to the
enactment of the Fair Sentencing Act, including the Sentencing Commission’s
criticisms that the disparity between crack cocaine and powder cocaine offenses
was disproportional and reflected race-based differences). Section 2 of the Fair
Sentencing Act changed the quantity of crack cocaine necessary to trigger a 10year mandatory minimum from 50 grams to 280 grams and the quantity necessary
to trigger a 5-year mandatory minimum from 5 grams to 28 grams. Fair
Sentencing Act § 2(a)(l)-(2); see also 21 U.S.C. § 841 (b)( 1 )(A)(iii), (B)(iii).
These amendments were not made retroactive to defendants who were sentenced
before the enactment of the Fair Sentencing Act. United States v. Berry, 701 F.3d
374, 377 (11th Cir. 2012). The Fair Sentencing Act did not expressly make any
changes to § 841(b)(1)(C), which provides for a term of imprisonment of not more
than 20 years for cases involving quantities of crack cocaine that do not fall within
§ 841(b)(1)(A) or (B). See Fair Sentencing Act § 2(a); 21 U.S.C. § 841(b)(1)(C).
The First Step Act made retroactive the statutory penalties for covered
offenses enacted under the Fair Sentencing Act. See First Step Act § 404. Under
3

Case: 19-12390

Date Filed: 08/26/2020

Page: 4 of 12

§ 404(b) of the First Step Act, a court “that imposed a sentence for a covered
offense may . . . impose a reduced sentence as if sections 2 and 3 of the Fair
Sentencing Act. .. were in effect at the time the covered offense was committed.”
Id. § 404(b). The statute defines “covered offense” as “a violation of a Federal
criminal statute, the statutory penalties for which were modified by section 2 or 3
of the Fair Sentencing Act..., that was committed before August 3, 2010.” Id.
§ 404(a). The First Step Act further states that “[njothing in this section shall be
construed to require a court to reduce any sentence pursuant to this section.” Id.
§ 404(c).

In Jones, we considered the appeals of four federal prisoners whose motions
for a reduction of sentence pursuant to § 404(b) were denied in the district courts.
See Jones, 962 F.3d at 1293. First, we held that a movant was convicted of a
“covered offense” if he was convicted of a crack-cocaine offense that triggered the
penalties in § 841 (b)( 1 )(A)(iii) or (B)(iii). Id. at 1300. Interpreting the First Step
Act’s definition of a “covered offense,” we concluded that the phrase “the statutory
penalties for which were modified by section 2 or 3 of the Fair Sentencing Act”
(the “penalties clause”) modifies the term “violation of a Federal criminal statute.”
Id. at 1298; see First Step Act § 404(a). Thus, “a movant’s offense is a covered
offense if section two or three of the Fair Sentencing Act modified its statutory
penalties.” Jones, 962 F.3d at 1298. Because section two of the Fair Sentencing
4

Case: 19-12390

Date Filed: 08/26/2020

Page: 5 of 12

Act “modified the statutory penalties for crack-cocaine offenses that have as an
element the quantity of crack cocaine provided in subsections 841 (b)( 1 )(A)(iii) and
(B)(iii),” a movant has a covered offense if he was sentenced for an offense that
triggered one of those statutory penalties. Id.
We explained that district courts must consult the record, including the
movant’s charging document, the jury verdict or guilty plea, the sentencing record,
and the final judgment, to determine whether the movant’s offense triggered the
penalties in § 841 (b)( 1 )(A)(iii) or (B)(iii) and, therefore, is a covered offense. Id.
at 1300-01. We rejected the government’s argument that, when conducting this
inquiry, the district court should consider the actual quantity of crack cocaine
involved in the movant’s violation. Id. at 1301. Rather, the district court should
consider only whether the quantity of crack cocaine satisfied the specific drug
quantity elements in § 841—in other words, whether his offense involved 50 grams
or more of crack cocaine, therefore triggering § 841 (b)( 1 )(A)(iii), or between 5 and
50 grams, therefore triggering § 841 (b)( 1 )(B)(iii). Id.
Hence, we determined that any actual drug amount involved in the movant’s
offense beyond the amount related to his statutory penalty is not relevant to
whether he was convicted of a covered offense. Id. at 1301-02. However, contrary
to the movants’ arguments, we opined that a district court’s actual drug-quantity
finding remains relevant to the extent that the district court’s finding triggered a
5

Case: 19-12390

Date Filed: 08/26/2020

Page: 6 of 12

higher statutory penalty. Id. at 1302. Thus, a movant sentenced prior to Apprendi
v. New Jersey, 530 U.S. 466, 120 S. Ct. 2348 (2000), in which the Supreme Court
held that facts, such as drug quantity, that increase a defendant’s statutory
maximum must be made by a jury, cannot “redefine his offense” to one triggering
a lower statutory penalty simply because the district court, not a jury, made the
drug-quantity finding relevant to his statutory penalty. See Jones, 962 F.3d at
1302.
Applying this inquiry to the four movants in Jones, we concluded that all
four were sentenced for covered offenses because they were all sentenced for
offenses whose penalties were modified by the Fair Sentencing Act. Id. at
1302-03. Specifically, similar to the situation in the instant case, we determined
that one movant, Alfonso Allen—who was charged in 2006 with 50 grams or more
of crack cocaine, found by a jury to be responsible for that drug amount, and
attributed with between 420 and 784 grams of crack cocaine per week at
sentencing—was convicted of a covered offense, noting that the higher
drug-quantity finding at sentencing did not trigger the statutory penalty for his
offense. Id.
Next, we explained that a movant’s satisfaction of the “covered offense”
requirement does not necessarily mean that the district court is authorized to
reduce his sentence. Id. at 1303. Specifically, the “as if’ qualifier in Section
6

Case: 19-12390

Date Filed: 08/26/2020

Page: 7 of 12

404(b) of the First Step Act, which states that any reduction must be “as if sections
2 and 3 of the Fair Sentencing Act. .. were in effect at the time the covered
offense was committed,” imposes two limitations on the district court’s authority.
Id. (quotation marks omitted) (alteration in original); see First Step Act § 404(b).
First, the district court cannot reduce a sentence where the movant received the
lowest statutory penalty that would also be available to him under the Fair
Sentencing Act. Jones, 962 F.3d at 1303. Second, in determining what a movant’s
statutory penalty would have been under the Fair Sentencing Act, the district court
is bound by a previous drug-quantity finding that was used to determine the
movant’s statutory penalty at the time of sentencing. Id. Moreover, the
Constitution does not prohibit district courts from relying on judge-found facts that
triggered statutory penalties prior to Apprendi. See id. at 1303-04.
Applying these limitations, we held that if a movant’s sentence necessarily
would have remained the same had the Fair Sentencing Act been in effect—in
other words, if his sentence was equal to the mandatory minimum imposed by the
Fair Sentencing Act for the quantity of crack cocaine that triggered his statutory
penalty—then the Fair Sentencing Act would not have benefitted him, and the First
Step Act does not authorize the district court to reduce his sentence. Id. at 1303.
Applying this “as-if ’ framework, we vacated and remanded the denials of
two of the movants’ motions because the district courts had authority to reduce
7

Case: 19-12390

Date Filed: 08/26/2020

Page: 8 of 12

their sentences under the First Step Act, but it was unclear whether the courts had
recognized that authority. Id. at 1304-05. Specifically, as to movant Allen, we
noted that the district court denied the motion because Allen’s guideline range
remained the same, based on the drug-quantity finding made at sentencing, and his
sentence was already at the low-end of that guideline range, such that the court
may have incorrectly concluded that he was not eligible for a further reduction. Id.
at 1305. We held that it was error for the district courts to conclude that a movant
was ineligible based on (1) a higher drug-quantity finding that was made for
sentencing—not statutory—purposes, (2) a movant’s career-offender status, or
(3) a movant’s sentence being at the bottom of the guideline range. Id. Because it
was ambiguous whether the district courts denied their motions for one of those
reasons, we vacated and remanded the denials for further consideration. Id.
Finally, we noted that, although a district court may have the authority to
reduce a sentence under Section 404 of the First Step Act, it is not required to do
so. Id. at 1304. We held that a district court has wide latitude to determine
whether and how to exercise its discretion, and that it may consider the 18 U.S.C.
§ 3553(a) factors and a previous drug-quantity finding made for the purposes of
relevant conduct. Id. at 1301, 1304.
Although we stated in Jones that a district court may consider the § 3553(a)
factors when assessing an eligible movant’s request for a sentence reduction under
8

Case: 19-12390

Date Filed: 08/26/2020

Page: 9 of 12

Section 404(b), we have not addressed in a published decision whether a district
court is required to do so. In the § 3582(c)(2) context, a district court is required to
consider the § 3553(a) factors in assessing a qualifying movant’s request for a
sentence reduction, but this requirement is set forth explicitly in U.S.S.G.
§ 1B1.10. See 18 U.S.C. § 3582(c)(2); U.S.S.G. § 1B1.10, comment. (n.l(B)(i)).
Section 404 of the First Step Act, on the other hand, does not expressly require the
district court to consider the § 3553(a) factors. In addition, we have held that the
First Step Act does not authorize a district court to conduct a plenary or de novo
resentencing in which it reconsiders sentencing guideline calculations unaffected
by sections 2 and 3 of the Fair Sentencing Act. United States v. Denson, 963 F.3d
1080, 1082, 1086-88 (11th Cir. 2020).
In situations where consideration of the § 3553(a) factors is mandatory, it is
not necessary for the district court to state on the record that it has explicitly
considered each of the § 3553(a) factors or to discuss each of the § 3553(a) factors.
United States v. Kuhlman, 711 F.3d 1321, 1326 (11th Cir. 2013). In addition, a
sentence may be affirmed so long as the record indicates that the district court
considered several factors. See United States v. Dorman, 488 F.3d 936, 944 (11th
Cir. 2007) (affirming appellant’s sentence because even though the district court
did not discuss each of the sentencing factors, the record showed that it considered
several of them). Moreover, the weight given to any of the § 3553(a) factors is
9

Case: 19-12390

Date Filed: 08/26/2020

Page: 10 of 12

committed to the sound discretion of the district court. United States v. Croteau,
819 F.3d 1293, 1309 (11th Cir. 2016). Even so, “[a] district court abuses its
discretion when it (1) fails to afford consideration to relevant factors that were due
significant weight, (2) gives significant weight to an improper or irrelevant factor,
or (3) commits a clear error of judgment in considering the proper factors.” United
States v. Irey, 612 F.3d 1160, 1189 (11th Cir. 2010) (en banc) (quoting United
States v. Campo, 459 F.3d 1121, 1174 (11th Cir. 2006) (en banc)). Furthermore, a
district court’s unjustified reliance on any one § 3553(a) factor to the detriment of
all the others may be a symptom of an unreasonable sentence. United States v.
Pugh, 515 F.3d 1179, 1191 (11th Cir. 2008).
Under § 3553(a), a district court’s sentence must be sufficient, but not
greater than necessary, to achieve the goals of sentencing, which are: reflecting the
seriousness of the offense, promoting respect for the law, providing just
punishment, deterring future criminal conduct, protecting the public, and providing
the defendant with any needed training or treatment. 18 U.S.C. § 3553(a)(2).
Section 3553(a) also requires district courts to consider the nature and
circumstances of the offense, the defendant’s history and characteristics, the kinds
of sentences available, the Sentencing Guidelines, any pertinent policy statement,
the need to avoid disparate sentences for defendants with similar records, and the
need to provide restitution to any victims. Id. at § 3553(a)(1), (3)-(7). While we
10

Case: 19-12390

Date Filed: 08/26/2020

Page: 11 of 12

do not automatically presume a sentence within the guideline range is reasonable,
we ordinarily expect such a sentence to be reasonable. United States v. Hunt, 526
F.3d 739, 746 (11th Cir. 2008). A sentence that is well below the statutory
maximum penalty is another indicator of a reasonable sentence. See United States
v. Gonzalez, 550 F.3d 1319, 1324 (11th Cir. 2008).
III.
Here, although Sterlin was eligible for a sentence reduction under the First
Step Act, which the district court correctly recognized, we conclude from the
record that the district court did not abuse its discretion in denying Sterlin’s
motion. Based on the record, the district court did consider several factors in
denying Sterlin’s sentence reduction, whether it was required to or not. The
district court noted that Sterlin’s co-defendants received lower sentences than he
did and that it had considered this previously in sentencing Sterlin. The district
court also noted that Sterlin’s guideline range would be changed by the Fair
Sentencing Act and the First Step Act, which indicates that it considered the kinds
of sentences available and the Sentencing Guidelines. Moreover, the record
indicates that the district court recognized that Sterlin’s advisory guideline range
would have been 262 to 327 months’ imprisonment had the Fair Sentencing Act
been in effect at the time of his sentencing and that the 192-month sentence that it
imposed was still well below that range. Accordingly, for the aforementioned
11

Case: 19-12390

Date Filed: 08/26/2020

Page: 12 of 12

reasons, we affirm the district court’s order denying Sterlin’s motion for reduction
of his 192-month total sentence.
AFFIRMED.

12

n n. n n n n rr n rz
Case 1:09-cr-20264-JLK

Document 676

Entered on FLSD Docket 04/26/2019

Page 1 of 3

Apr*- t
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
CASE NO. 09-CR-20264-JLK
UNITED STATES OF AMERICA,
v.

RECEIVED

FRANTZ STERLIN,
Defendant.

DEC 3 1 2020
OFFICE OF THE CLERK
SUPREME COURT. »,£-

ORDER DENYING DEFENDANT’S MOTION TO REDUCE
SENTENCE PURSUANT TO THE FIRST STEP ACT OF 2018
THIS MATTER conies before the Court upon Defendant Frantz Sterlin’s Motion to
Reduce Sentence Pursuant to the First Step Act of 2018 (“Motion”) (D.E. 672), filed April 3,
2019. The Court has also considered the government’s Response in Opposition (D.E. 674), filed
April 16, 2019.
In a drug distribution conspiracy case, co-defendant Sterlin was found guilty by a jury on
May 5, 2010 (D.E. 297) of four counts of possession with intent to distribute five grams or more
of cocaine base pursuant to 21 U.S.C. § 841(a)(1) and (b)(1)(B) (D.E. 3). On July 21, 2010, the
Court sentenced Sterlin to 192 months (16 years) of imprisonment (D.E. 372), a significant
downward variance from the sentencing guideline range of 360 months (30 years) to life
imprisonment that applied where Sterlin had a criminal history category of VI {see D.E. 457, at
8).
In the Motion, Sterlin requests a resentencing or sentence reduction pursuant to Section
404 of the First Step Act of 2018 (D.E. 672, at 1, 4). The First Step Act of 2018 allows a court,
on motion by the defendant, to “impose a reduced sentence as if sections 2 and 3 of the Fair

o

case i:09-cr-20264-JLK Document 676 Entered on FLSD Docket 04/26/20

Sentencing Act of 2010 were in effect at the time the covered offense was committed.” First
Step Act of 2018, § 404(b), Pub. L. 115-391, 1332 Stat. 5194, 5222 (Dec. 21, 2018). Section 2
of the Fair Sentencing Act of 2010 increased the threshold amount of cocaine base required for a
conviction under 21 U.S.C. § 841(b)(1)(B) from 5 grams to 28 grams (so as to reduce the
sentencing disparity between cocaine base and cocaine). See Fair Sentencing Act of 2010, Pub.
L. 111-220, 124 Stat. 2372, 2372 (Aug. 3, 2010). In addition, Sterlin discusses the § 3553(a)
sentencing factors, and argues it is inconsistent that the other co-defendants who “were classified
as working for” the “sole organizer/leader of the drug distribution conspiracy in this case”
received lower sentences than Sterlin of 70 months (5 years, 10 months) and 120 months (10
years) (D.E. 672, at 3).
The government argues that Section 404 of the First Step Act of 2018 does not authorize
a “plenary resentencing, but only application of the new guideline range as dictated by the
Commission,” citing the reasoning in Dillon v. United States, 560 U.S. 817 (2010) (D.E. 674, at
4). See Dillon, 560 U.S. 817 at 826, 831 (regarding sentence reduction pursuant to 18 U.S.C. §
3582(c)(2)). Following that reasoning, the government calculates that if the Fair Sentencing Act
had been in effect at the time of Sterlin’s sentencing, the appropriate guideline range would have
been 262 months (21 years, 10 months) to 327 months (27 years, 3 months), where Sterlin would
have had a base offense level of 34 instead of 37 (id. at 6). However, the government notes,
“[n]othing in the First Step Act provides a basis for the Defendant to challenge his career
offender designation” (id. 6 n.3).
At the July 21, 2010 sentencing hearing, the Court stated that it “will grant a variance
from the advisory guideline range based upon primarily avoiding disparity in general sentencing
not only in this case but across the spectrum of the hundreds or thousands of people that have
2

o

*

'

I

case l:09-cr-20264-JLK

Document 676

Entered on FLSD Docket 04/26/2019

Page 3 of 3

appeared before me over this 46 years of sentencing (D.E. 457, at 16:11-15 (emphasis added)).
Therefore, the Court already took into account Sterlin’s position in the original sentencing in
granting a downward variance to 192 months’ imprisonment, far below the guideline range of
360 months to life imprisonment.
Accordingly, it is ORDERED, ADJUDGED, and DECREED that Frantz Sterlin’s
Motion to Reduce Sentence Pursuant to the First Step Act of 2018 (D.E. 672) be and the same is
hereby DENIED.
DONE and ORDERED in Chambers at the James Lawrence King Federal Justice
Building and United States Courthouse in Miami, Florida, on this 26th day of April, 2019.

/AMES LAWRENCE KING
/[
UNITED STATES DISTRICT JUDGE
SOUTHERN DISTRICT OF FLORIDA
cc:

AU Counsel of Record

3

D

